OFFICE OF ATTORNEY GENEIL
STATE OF OKIHoMA

September 22, 2021
Mr. Scott S. Harris
Clerk of the Cotirt
The Supreme Court of the United States
One First Street, NE
Washington. D.C. 20543
Re: Oklahoma v. Floyd Joseph Ball, Ji., No. 21-327

Dear Mr. Harris,
I am counsel of record for petitioner in the above-captioned matter’ and write
to provide the Court with an update regarding the petition in this case. In the petition
for certiorari, petitioner referred the Court to its petition in Oklahoiia Bosse, No.
21-186. for a fuller explanation of the reasons why review of the questions presented
is warranted. Petitioner’ requested that the Court grant the petition in this case or,
in the alternative, grant the petition in Bosse and hold the petition in this case
pending its decision in Bosse.
.

While the petition in Bosse was pending, the Oklahoma Court of Criminal
Appeals sua sponte vacated the judgment in that case, and the par’ties agreed to
dismiss the matter. On September 14, 2021, counsel for petitioner informed counsel
for respondent in this matter’ of the dismissal in Bosse and of petitioner’s intent to file
a petition in another’ case that would again fully set forth the reasons for’ granting
r’eview on the questions that remain unresolved after the dismissal in Bosse.
Subsequently, petitioner’ filed a petition for certiorari in Oklahoma v. Cast ro-Hiierta,
No. 2 1-429. which presents two of the same questions as Bosse and again fully sets
forth the arguments in favor of review.
Accordingly, when considering the petition in this matter, petitioner
respectfully requests that the Court to refer to petitioner’s arguments in Casti’o
Huerta in lieu of referring to the now-dismissed petition in Bosse. Petitioner requests
that the Court grant the petition in this case or, in the alternative, grant the petition
in Castro-Thierta and hold the petition in this case pending its decision in CastroHuerta.

313 N.E. 21ST SrRET

•

OKLFlo.IA Cm, OK 73105

4’

•

(405) 521-3921

recycled paper

•

fAx:

(405) 521-6246

Respectfully,

Mithun Mansinghani
Solicitor General
OKLAhoMA OFFICE OF THE
ATTORNEY GENERAL

Counsel of Record for Petitioner

cc: Counsel of Record for Floyd Joseph Ball, Jr.

Chad Johnson
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070

